IN THE SUPREME COURT OF THE UNITED STATES

SIMPSON, GREGORY S.
Petitioner
vs.

No:

21-0192

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 19, 2021
cc:
TAMI L. MITCHELL
LAW OFFICE OF TAMI L. MITCHELL
5390 GOODWIEW DRIVE
COLORADO SPRINGS, CA 80911
MEGAN P. MARINOS
U.S. NAVY-MARINE CORPS
APPELLATE DEFENSE DIVISION
1254 CHARLES MORRIS ST, SE
BLDG. 58, SUITE 100
WASHINGTON NAVY YARD, DC
20374

